No._______
IN THE
SUPREME COURT OF THE UNITED STATES

Richard G. Wern,
Petitioner,
vs.
Supreme Court of South Carolina
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF SOUTH CAROLINA
APPENDIX
Desa Ballard
Supreme Court Bar No. 174416
Ballard & Watson
226 State Street
West Columbia, South Carolina 29169
Telephone 803.796.9299
desab@desaballard.com
ATTORNEY FOR PETITIONER

APPENDIX
TABLE OF CONTENT

Order Denying Petition for Rehearing filed November 25, 2020 ................ A-01
Petition for Rehearing dated October 22, 2020 ........................................... A-02
Opinion of the South Carolina Supreme Court No. 27998
filed October 7, 2020 ..................................................................................... A-14
Panel Report dated January 25, 2020 .......................................................... A-24
Amended Response to Formal Charges dated June 25, 2019 (without
exhibits) ........................................................................................................ A-47
Formal Charges dated May 6, 2019 ............................................................. A-53
Commission on Lawyer Conduct letter authorizing the filing of Formal
Charges dated November 18, 2013............................................................... A-63

i

The Supreme Court of South Carolina
In the Matter of Richard G. Wern, Respondent
Appellate Case No. 2020-000125

ORDER
After careful consideration of the petition for rehearing, the Court is unable to
discover that any material fact or principle of law has been either overlooked or
disregarded, and hence, there is no basis for granting a rehearing. Accordingly, the
petition for rehearing is denied.
C.J.
J.
J.
J.
I would grant the petition for rehearing.
J.
Columbia, South Carolina
November 25, 2020
cc:

Desa Ballard, Esquire
John S. Nichols, Esquire
Julie Kay Martino, Esquire
A-01

THE STATE OF SOUTH CAROLINA
In the Supreme Court

In the Matter of Richard G. Wern,
Respondent.
_______________________________
Opinion No. 27998, October 7, 2020
Appellate Case No. 2020-000125
_______________________________
PETITION FOR REHEARING
_______________________________

Respondent Richard G. Wern seeks reconsideration of the Order of the Supreme Court in
this matter imposing disbarment upon Wern. Wern respectfully requests that the referenced Order
be withdrawn, and a substitute Order be issued that imposes a modified sanction equal to the
recommendation from the Hearing Panel below. In support of the Petition and such relief,
Respondent asserts:
1. The Court deprived Wern equal protection under the law, both state and federal, when
it relied upon In Re: Beck, 412 S.C. 585, 773 S.E.2d 576 (2015) as the controlling case
in terms of sanction, as the respondent Beck in that matter did not personally restore
any funds to his client trust accounts, and relied upon others to remedy the losses which
occurred in handling client money, and additionally had a relevant prior disciplinary
history. (Panel Report re: Beck, attached as Exhibit A). Here, Wern replaced every
dime of money personally and has otherwise practiced law for 40 years, including the

A-02
1

last approximate six years after lifting of interim suspension, without disciplinary
incident. Beck is inapposite. 1
2. The Court denied Wern due process of law, both state and federal, when it required
Wern to establish “unfair prejudice” in order to permit ODC’s delay in the prosecution
of this matter to be considered as a mitigating factor affecting appropriate sanction
determination, especially when the opinion states “Respondent did not suffer any
prejudice…” (emphasis added).

The vague, ambiguous, and newly announced

standard not previously applied in this jurisdiction creates an unreasonable obstacle to
ensuring due process and curing/avoiding systemic delays, both in this matter and
future cases. 2 The Court had every right to be angry about the embarrassing delay by
ODC, but its anger was taken out on Wern because he dared discuss its relevance and
systemic nature. The ABA Standards for Imposing Lawyer Sanctions, which were
enacted “to provide a framework to guide the courts and disciplinary agencies,
including disciplinary counsel, in imposing sanctions.” See Commentary to Rule 10,
ABA Model Rules for Lawyer Disciplinary Enforcement. Those standards have been
used across the country for such purposes, including being discussed by this Court in
connection with disciplinary decisions. E.g., In re Chastain, 532 S.E.2d 264, 340 S.C.

1

Wern’s brief cited to numerous cases involving trust account issues that did not result in any period of suspension
from the practice of law. The Hearing Panel properly balanced the existing precedent against the unique circumstances
presented by Wern’s case, for which there is no square or controlling precedent.
2

The Court’s opinion notes formal charges were authorized in 2013, yet ODC provided no justification for its
inexcusable delay which followed that authorization. The Court’s decision gives ODC’s egregious delay a “pass” by
pointing out in a footnote that present ODC is not responsible for the unreasonable delay which plagued this
proceeding. The Court knows from Wern’s brief that this issue will be before the Court again, yet the Court’s opinion
sets the stage for delay to be set aside as a mitigating factor in future cases, prejudicing countless lawyers whose cases
are stuck in limbo rather than dealing with the actual problem. Excessive delays by ODC is not a new issue; the Court
has seen it consistently for decades. See e.g., In re: Johnson, 385 S.C. 501, 685 S.E.2d 610 (2009) (nine years from
initiation of investigation by ODC to the Court’s decision); In re: Yarborough, 380 S.C. 104, 668 S.E.2d 802 (2008)
(ten years from initiation of investigation by ODC to the Court’s decision).

A-03
2

356 (2000), In re: Meeder, 488 S.E.2d 875, 327 S.C. 169 (1997). Those standards
further recognize “mitigating factors include… delay in disciplinary proceedings” but
do not impose the arbitrary “unfair prejudice” standard that undermines the
applicability of such mitigation to the point of recognition in name only. By including
a requirement for a Respondent to show “unfair prejudice” in order for ODC’s delay to
be considered in mitigation, the Court signaled its intention that the sanction imposed
on Wern to be punitive.
3. The Court denied Wern equal protection of law, both state and federal, when it imposed
a sanction that was unavoidably punitive in intent, 3 as evidenced most clearly in the
concurring opinion of Justice Few who equated the discipline process to a criminal
proceeding and opined accordingly, when punishment is not the purpose of lawyer
disciplinary proceedings. E.g., Matter of Brooks, 324 S.C. 105, 477 S.E.2d 98 (1996)
(“the primary purpose of disbarment… is the removal of an unfit perform from the
profession for the protection of the courts and the public, not punishment of the
offending attorney.”); Ex Parte: Wall, 107 U.S. 265, 2 S.Ct. 569, 27 L.Ed 552 (1883)
(“The proceeding is not for the purpose of punishment, but for the purpose of
preserving the courts of justice from the official ministration of persons to pratise [sic]
in them.”)

3

The Court’s order of disbarment is, in essence, a permanent sanction because the record establishes that Wern is
(now) 73 years old and the likelihood of reinstatement after disbarment at that age is likely impossible, depriving him
of any ability to show rehabilitation. 32 Georgetown Journal of Legal Ethics: Treating All Attorneys Fairly: Changing
the Rules for Disbarment, Regardless of Conduct 659.

A-04
3

s/ Desa Ballard
Desa Ballard
Harvey M. Watson III
BALLARD & WATSON
226 State Street
West Columbia, South Carolina 29169
Telephone 803.796.9299
Facsimile 803.796.9166
ATTORNEYS FOR RESPONDENT
October 22, 2020

A-05
4

AUG 2 1 2014
STATE OF SOUTH CAROLINA
COMMISSION ON
BEFORE THE.COMMISSION ON LAWYER CONDUCTLAWYER CONDUCT
·•

•

.

•

,

. •,

;

•

.:

,

• •

r

.

•

INTHE MAT·TER OF:
: Daniel A. Beck, Respondent.
Docket Number:

13-CLC-007

PANEL REPORT

I.

INTRODUCTION & PROCEDURAL HISTORY
Formal charges in this lawyer disciplinary matter were filed on July 30, 2013.

Respondent filed his answer on August 28, 2013.

This matter came before this

hearing panel on November 19, 2013. Appearing at the hearing on behalf of the
Office · of Disciplinary Counsel was Deputy Disciplinary Counsel Barbara M.
Seymour. Respondent was represented by James Kevin Holmes, Esquire.
II.

STIPULATIONS OF FACT AND MISCONDUCT
The Respondent admitted the facts alleged in the formal charges.

The

parties entered the following stipulations:
1. Respondent operated a law firm as the principal shareholder for
twenty-four years, primarily handling plaintiff's personal injury cases on
a contingency basis. For a period of approximately eleven years ,
Respondent used funds from his trust account for purposes for which
those funds were not intended, including funding other clients'
litigation, cash advances to clients , office operating expenses, payroll,
and personal expenses.
2. Respondent instructed his nonlawyer staff with signatory authority on
his trust account to issue checks from that account for purposes for
which those funds were not intended.

A-06

EXHIBIT

I A

3. Respondent failed to properly reconcile his trust account or otherwise
maintain records required by Rule 417, SCACR. As a result of
inadequate accounting practices, Respondent made numerous
mistakes in client transactions resulting in overpayments of attorney's
fees to the firm, overpayments to clients, and bank fees that were not
covered by firm funds.
4. Periodically, Respondent attempted to restore misappropriated funds
by leaving earned fees in his trust account, but no regular accounting
of those credits was maintained.
5. As of August 31, 2011, Respondent had approximately $5~5,806.86 in
negative client ledger balances. At the time of his interim suspension,
the balance in Respondent's trust account was $439,042.30.
6. As of the date of these stipulations, the attorney appointed to protect
the interests of Respondent's clients has restored the trust account
with funds received o.n behalf of Respondent in the form of earned fees
and cost reimbursements and has reimbursed from those funds all
clients, medical providers, and lien holders with claims that have been
identified to date.
7. Respondent's conduct violated Rules 1.8(e), 1.15, 5.3, 8.4(d) of the
Rules of Professional Conduct, Rule 407, SCACR.
8. The foregoing constitutes grounds for discipline pursuant to Rule
7(a)(1), (5) and (6) of RLDE.
As a result of Respondent's admissions, the only matter before us was a
determination regarding the appropriate sanction to recommend to the Supreme
Court.

Ill.

SANCTION

Disbarment is the most common sanction imposed for misappropriation of
client funds from trust.

See e.g., In re Murdaugh, 342 S.C. 59, 536 S.E.2d 370

(2000) (lawyer disbarred, in part, for misappropriating client funds and converting
them to her own use for a period of eighteen months); In re Thompson, 343 S.C. 1,
. 539 S.E.2d 396 (2000) (lawyer disbarred after self-reporting misappropriation from

A-07

his trust account over a two-year period); In re Arsi, 357 S.C . 8, 591 S.E.2d 627
(2004) (lawyer disbarred after self-reporting misappropriation of $412,000.00 in
client funds) ; In re Murphy, 367 S.C. 338, 626 S.E.2d 333 (2006) (lawyer disbarred
after self-reporting misappropriation of $65,000.00);

In re Cunningham, 371 S.G.

503, 640 S.E.2d 461 (2007) (lawyer disbarred after self-reporting misappropriation of
$70,000.00 from trust); In re Newton, 402 S.C. 365, 741 S.E.2d 23 (2013) (lawyer
disbarred for misappropriation of funds over a three- to four-year period); In re
Lafaye, 399 S.C. 12, 731 S.E.2d 282 (2012) (lawyer disbarred for misappropriation
of in excess of $365,000.00 over a seventeen-year period); In re James, 405 S.C.
17, 747 S.E.2d 169 (2013) (lawyer disbarred for misappropriation in excess of
$350,000.00 over a four-year period).
There have, however, been _cases involving misappropriation of client funds in
which the Supreme Court imposed a sanction less than disbarment. See e.g., In re
Moore and Brown, 280 S.C. 178, 312 S.E.2d 1 (1984) (lawyer indefinitely suspended
for misappropriating client funds to make payroll, pay office expenses, and pay other
clients' litigation costs over a six month period); In re Amick, 288 S.C. 486, 343
S.E.2d 623 (1986) (lawyer indefinitely suspended for misappropriating client funds to
pay medical liens, commingling funds, inadequate recordkeeping, among · other
misconduct) ; In re Buchanan-Lyon, 375 S.C. 429, 653 S.E.2d 277 (2007) (lawyer
indefinitely suspended for $18,000.00 shortage, due in part to her failure to comply
with Rule 417); In re Ruff, 366 S.C. 1, 620 S.E.2d 323 (2005) (lawyer indefinitely
suspended for commingling funds and converting approximately $15,000.00 of
clients' funds to his own personal use); In re Perrow, 346 S.C. 515, 552 S.E.2d 295

A-08

(2001) (indefinite suspension where lawyer issued check to himself that exceeded
his fee in several cases and used funds in escrow account to pay for repairs to
residence).
A. Aggravating Factors.
In making our recommendation, we have taken into consideration both
aggravating and mitigating circumstances.

In aggravation of sanction, we first

considered the serious nature of Respondent's misconduct. Our Supreme Court has
"made it abundantly clear that an attorney is charged with a special responsibility in
maintaining and preserving the integrity of trust funds." In re Padgett, 290 S.C. 209
at 211, 349 S.E.2d 338 at 338 (1986) (citing, In re Amick. 288 S.C. 486, 343 S.E.2d
623 (1986)) (indefinite suspension); In re James. 289 S.C. 4, 344 S.E.2d 378 (1986)
(disbarment); In re Jackson. 289 S.C. 35, 344 S.E.2d 607 (1986) (disbarment); In re
Moore and Brown. 280 S.C . 178, 312 S.E.2d 1 (1984) (indefinite suspension of
Moore). Integrity of client funds is fundamental to the preservation of the trust that is
necessary for attorney-client relationships and the administration of justice.
Respondent's conduct in failing to ensure that integrity put his clients at serious risk
of significant financial losses.

According to the stipulations, Respondent had in

excess of $560,000.00 in negative client ledger balances at the time of his interim
suspension . His counsel at the hearing indicated that associated attorneys in cases
pending at the time of interim suspension were willing to honor his claims for costs
and shared attorney's fees, rendering the attorney appointed to protect his clients'
interests able to restore the funds and make the clients whole . Were this not the
case, Respondent's conversion of trust funds would have left his clients with little

A-09

recourse other than limited funds available through the Lawyers' Fund for Client
Protection.
Second, - we considered Respondent's pattern of misconduct. See, In re
Purvis, 347 S.C. 605, 557 S.E.2d 651 (2001); In re Robertson, 383 S.C . 140, 678
S.E.2d 440 (2009); In re Toney, 396 S.C. 303, 721 S.E.2d 437 (2012). See also,
§9.22(c) ABA Standards for Imposing Lawyer Sanctions (pattern of misconduct).
Respondent engaged in a practice of misappropriation over an_eleven-year period.
Third, we have taken into consideration Respondent's multiple rule violations.
See, In re Wells, 392 S.C . 371, 709 S.E.2d 644 (2011) . See also, §9.22(d) ABA
Standards for Imposing Lawyer Sanctions (multiple offenses).

In addition to

misappropriation in violation of RPC Rules 1.15 and 8.4(d), Respondent also failed
to maintain the required trust account records in violation of Rule 417, SCACR.
Further, Respondent used some of the converted funds to provide improper financial
assistance to clients in violation of RPC Rule 1.8.

Of significant concern is

Respondent's use of his nonlawyer staff to facilitate his misconduct. By instructing
his legal assistants to write checks to remove funds from the trust account for
improper purposes, Respondent violated RPC Rule 5.3(c)(1) .
Finally, we have taken into consideration Respondent's prior disciplinary
history. See, In re Jacobsen, 386 S.C. 598, 690 S.E.2d 560 (2010); In re Braghirol,
383 S.C . 379, 680 S.E .2d 284 (2009); In re White, 378 S.C . 333, 663 S.E.2d 21
(2008); and, In re Sturkey 376 S.C. 286, 657 S.E.2d 465 (2008) . See also, ABA
Standards ·for Imposing Lawyer Sanctions §9.22(a) (prior disciplinary offenses). In
2009, the Commission on Lawyer Conduct issued a Letter of Caution to Respondent

A-10

I.

finding that he had violated Rule 1.8(e), the provision of the Rules of Professional
Conduct that prohibits lawyers from providing financial assistance to clients.
According to the stipulations and to Respondent's testimony at the hearing , he
continued to engage in conduct in violation of this rule in spite of this caution.
Respondent's disregard of the Commission's prior warning is a significant
aggravating factor.
B. Mitigating Factors.
We have also taken into consideration certain mitigating circumstances. First,
we considered Respondent's sincere remorse and regret for his misconduct.

See,

In re Cromartie, 401 S.C. 265, 736 S.E.2d 856 (2012); In re Glover, 333 S.C. 423 ,
510 S.E.2d 419 (1998). See also, ABA Standards for Imposing Lawyer Sanctions
§9.3(1) (remorse). We have strongly factored into our decision that Respondent
admitted his misconduct, expressed sincere remorse for the harm he had caused ,
and accepted full responsibility for his actions. The Panel had the opportunity to
hear and observe the Respondent during his testimony and his responses to the
questions posed by the Panel and by Disciplinary Counsel.

The Panel was

impressed by Respondent's honesty, candor, and demeanor when he testified.
·Second, we ackno~vledge the fact that . Respondent .·self-repprted his
misconduct and fully cooperated during the disciplinary proceedings.

See, ABA

Standards for Imposing Lawyer Sanctions §9 .3(e) (full and free disclosure to the
Commission and cooperative attitude toward the proceedings). The Panel believes
there should be some incentive for lawyers to self-report, especially in cases such as
this, when it is not too late to make up shortages and prevent financial injury to the

A-11

clients. After Respondent self-reported, he fully cooperated with the disciplinary
investigation and took necessary steps to ensure that the clients were made whole.
Finally, we have considered Respondent's conduct following his interim
suspension in hiring an accountant to assist with distribution of funds remaining in
trust and accounting for incoming funds . See, ABA Standards for Imposing Lawyer
Sanctions §9.3(d) (timely good faith effort to make restitution or rectify the
consequences of misconduct). Respondent arranged for a review of his trust
account by a Certified Public Accountant who was able to identify all amounts owed
to clients and medical providers so that payments could be distributed by the
attorney appointed to protect clients' interests. While the amount of the shortage in
Respondent's

trust

account

was

substantial,

Respondent's

self-rep~rt

and

cooperation with ·the investigation made it possible for the attorney appointed to
protect clients' interests to make full restitution.
V.

RECOMMENDATION
Although disbarment would seem to be the most appropriate sanction, we

have given substantial weight to the mitigating factors in this matter. We, therefore,
recommend

th~t

Respondent be suspended for three years and that his suspension

be made retroactive to

N~v,ember

1, 2011, the date of interim suspension. We

recommend the following additional conditions:
1. The Respondent be ordered to pay the costs of these proceedings.
2. The Respondent be required to complete the South Carolina Bar's Legal
Ethics and Practice Program Ethics School and Trust Account School
within six months of reinstatement.

A-12

3. The Respondent be required to file quarterly trust account reconciliation
reports with the Commission on Lawyer Conduct for a period of two years
after reinstatement.

~ayicek
Doug
Chair of Hearing Panel

fv\y ~Jhqc;l,sc

At
Dated: August Jfy, 2014

A-13

THE STATE OF SOUTH CAROLINA
In The Supreme Court
In the Matter of Richard G. Wern, Respondent
Appellate Case No. 2020-000125
Opinion No. 27998
Heard August 27, 2020 – Filed October 7, 2020
DISBARRED
John S. Nichols, Disciplinary Counsel, and Julie Kay
Martino, Assistant Disciplinary Counsel, both of
Columbia, for the Office of Disciplinary Counsel.
Desa Ballard, of Ballard & Watson, of West Columbia,
for Respondent.

CHIEF JUSTICE BEATTY: In this attorney discipline matter, Respondent
Richard G. Wern admitted misconduct in failing to perform monthly reconciliations
of his trust account, failing to keep adequate records, disbursing before deposit on
735 client ledgers, failing to adequately supervise his non-lawyer staff, comingling
funds, and running trust-account shortages ranging from $110,907 to $425,926.
Following a hearing, a panel of the Commission on Lawyer Conduct (the Panel)
recommended Respondent receive a six-week definite suspension in light of
Respondent's repayment of the missing client funds and unexplained delay by the
Office of Disciplinary Counsel (ODC) in prosecuting this matter. Although we find
the inordinate delay by ODC troubling, we nevertheless disbar Respondent.

8
A-14

I.
Respondent was placed on interim suspension on November 6, 2013, after one of his
former associates filed a complaint against him alleging operational and case
management issues, including concerns related to the mismanagement of his trust
account. In re Wern, 406 S.C. 222, 750 S.E.2d 212 (2013). Respondent filed a
petition for reconsideration, and following a hearing, this Court lifted Respondent's
interim suspension upon several conditions. Notably, Respondent was prohibited
from accessing or controlling the law firm's trust or operating accounts. Instead, his
associate was responsible for ensuring all of the requirements of Rule 417, SCACR,
were met and for filing monthly reports with the Office of Disciplinary Counsel
certifying compliance. In re Wern, S.C. Sup. Ct. Order dated Dec. 23, 2013
(Shearouse Adv. Sh. No. 1 at 104). Respondent's law license has remained active
since December 2013.
Formal Charges were not filed against Respondent until May 6, 2019. The reason
for this delay is unclear. 1 In his Answer, Respondent admitted the factual allegations
and rule violations alleged in the Formal Charges, which are detailed below.
A. Failing to Perform Monthly Reconciliations
and Failing to Keep Proper Records
Prior to 2012, Respondent was not performing monthly three-way reconciliations of
his trust account. Rather, at the end of the year, a member of Respondent's staff
would perform a two-way reconciliation in preparation for filing the firm's tax
return. Respondent admitted never having read Rule 417, SCACR, 2 and did not
actively participate in the reconciliations of his trust account until late 2012, after
the underlying disciplinary complaint was filed. Because Respondent failed to
perform three-way reconciliations, he did not have adequate records to show that he
held in trust monies he was required to maintain for each of his clients. He also
failed to maintain client trust account ledgers and adequate receipts of deposits.
These actions violated Rule 1 of Rule 417, SCACR, and Rule 1.15, RPC, Rule 407,
SCACR.
1

We explore the factor of delay in Section III infra.

Rule 417 governs financial recordkeeping and enumerates basic financial records
and minimal accounting controls lawyers must maintain for lawyer trust accounts.
2

9
A-15

B. Disbursing Before Deposit, Comingling Funds, and
Failing to Supervise Staff
Respondent delegated to his office manager the responsibility for determining when
to withdraw earned fees from the trust account. The office manager would routinely
authorize and direct the transfer of money from the trust account to the operating
account or the payroll account. From January 2011 to September 2013, there were
more than 290 transfers from the trust account, which occurred with no notation of
the associated client file and no documentation that any of the money being
transferred was, in fact, earned fees. These bulk transfers of money resulted in
disbursement before deposit on 735 client ledgers. Some deficits were tens of
thousands of dollars, and many of the disbursements occurred months before
deposit. In addition, Respondent routinely deposited funds into his trust account
without proper attribution, and from time to time, he intentionally left earned fees in
his trust account to ensure it was not overdrawn.
Respondent knew or should have known about his staff's actions in transferring
money from the trust account to cover law firm expenses, payroll, and other
distributions; however, Respondent failed to implement any measures to ensure the
handling of the trust account complied with Rule 417, SCACR, and failed to ensure
his non-lawyer staff's conduct was compatible with his professional obligations
regarding handling client funds. These actions violated Rules 1.15(a), 1.15(f),
1.15(g), and Rule 5.3, RPC, Rule 407, SCACR.
C. Trust Account Shortages
On January 19, 2012, a law firm formed by lawyers who formerly worked for
Respondent requested that Respondent transfer client funds held in trust for his
former client J.F. The client ledger balance indicated Respondent should have held
in trust a total of $679,153, of which $347,335 was to be held in trust for J.F.
However, the balance of Respondent's trust account was $253,227. Thus,
Respondent's trust account was short by $425,926.
Around this time, Respondent liquidated some personal assets and made deposits
into his trust account totaling $250,000. Despite these infusions of cash, his trust
account was still short. After transferring monies held for J.F. to the successor law
10
A-16

firm, Respondent's trust account balance should have been $358,067; however, the
balance was only $37,641—a shortage of $320,426.
Respondent began performing the required three-way reconciliations beginning in
October 2012. However, from November 2012 through August 2013, Respondent's
trust account was short every month by $110,907. These actions violated Rule
1.15(f), RPC, Rule 407, SCACR. Respondent also violated Rule 2(c) of Rule 417,
SCACR, by writing checks on the trust account to cash.
II.
A hearing before the Panel was held on August 28, 2019, to consider evidence in
mitigation and aggravation and determine the proper sanction to recommend to this
Court. As aggravating factors, the Panel considered Respondent's substantial
experience in the practice of law and lengthy pattern of misconduct resulting in
multiple rule violations, finding "Respondent undoubtedly should have known about
and understood his ethical obligations to properly oversee the operation of his trust
account and to protect and preserve the client funds that were entrusted to him." The
Panel also highlighted Respondent's admission that he had never read Rule 417,
SCACR, prior to ODC's investigation or performed any three-way reconciliations of
his trust account before October 2013.
In mitigation, the Panel focused primarily on ODC's delay in bringing the
disciplinary proceedings. The Panel observed the investigation was initiated in
2012, and Formal Charges were authorized in 2013; however, Formal Charges were
not filed with the Commission on Lawyer Conduct until May 2019. In considering
the appropriate sanction, the Panel observed:
Had this case come before the Hearing Panel shortly after Formal
Charges were authorized in 2013, then it is likely that this Hearing
Panel would have considered a recommendation of disbarment due to
the gravity of Respondent's misconduct and the risk of significant client
harm caused by the misconduct. However, the Hearing Panel has
struggled greatly with the length of time that this matter has been
pending. Approximately seven years have passed since the misconduct
occurred and, in the meantime, Respondent has continued to practice
law without any additional disciplinary issues . . . .
11
A-17

The Panel ultimately recommended that Respondent receive a six-week suspension
for the misconduct and be credited "time served" for the six weeks of interim
suspension in 2013. The Panel further recommended Respondent be ordered to pay
the costs of the proceedings and that the conditions prohibiting Respondent's trust
account access and requiring monthly reports be lifted.
ODC takes exception to the Panel's analysis of aggravating and mitigating factors,
as well as the sanction the Panel recommended.
III.
"The sole authority to discipline attorneys and decide appropriate sanctions rests
with this Court." In re Davidson, 409 S.C. 321, 327, 762 S.E.2d 556, 559 (2014)
(citations omitted). "The Supreme Court may accept, reject, or modify in whole or
in part the findings, conclusions and recommendations of the [Panel]." Rule
27(e)(2), RLDE, Rule 413, SCACR. "This Court has never regarded financial
misconduct lightly, particularly when such misconduct concerns expenditure of
client funds or other improper use of trust funds." In re Taylor, 396 S.C. 627, 631,
723 S.E.2d 366, 367 (2012) (citation and quotations omitted). Consistent with
Respondent's admission of misconduct in his Answer to the Formal Charges, we find
Respondent committed misconduct as set forth above. Thus, the remaining issue
before this Court is the appropriate sanction. See Rule 7(b), RLDE, Rule 413,
SCACR (misconduct shall be grounds for one or more sanctions).
Even though the investigation into Respondent's financial misconduct was complex
and time-consuming, ODC's delay in prosecuting this matter is inexcusable. ODC
has offered no specific explanation, much less a reasonable one, for the five-and-ahalf year delay between the authorization and the filing of Formal Charges.
However, the question remains to what extent, if any, this unjustified delay mitigates
the gravity of Respondent's financial misconduct. The parties have not cited, and
our research has not revealed, any South Carolina case on point.
Other jurisdictions handle delay in disciplinary prosecution in varying ways. Some
treat it as a mitigating factor to be considered like any other, even in the absence of
a showing of prejudice to the respondent, and others consider delay only if it results
in prejudice or unfair prejudice to the respondent. See, e.g., In re Howes, 52 A.3d
1, 18 n.22 (D.C. Ct. App. 2012) (observing a twelve-year delay between the
misconduct and the disciplinary hearing did not demonstrate the requisite prejudice
12
A-18

to warrant mitigation of sanction); Hayes v. Alabama State Bar, 719 So.2d 787, 790–
91 (Ala. 1998) (finding the bar's unexplained "inordinate delay" in pursuing charges
warranted dismissal of the charges); In re Peasley, 90 P.3d 764, 777–78 nn.20-21
(Ariz. 2004) (finding a three-year delay from the filing of the initial complaint until
a formal complaint was filed to be a mitigating factor but finding the remaining fouryear delay was attributable to the complexity of the case and the Respondent's own
litigation tactics and therefore was not a mitigating factor); People v. Albani, 276
P.3d 64, 76 (Colo. 2011) (finding a five-year delay in disciplinary proceedings that
impacted witnesses' ability to recall underlying events and statements resulted in
prejudice, but not unfair prejudice, and therefore concluding delay "will not be
weighed heavily"); In re LiBassi, 867 N.E.2d 332, 336 (Mass. 2007) (finding "delay
in the prosecution of attorney misconduct does not constitute a mitigating factor
absent proof that the delay has substantially prejudiced the defense, or evidence of
the resulting public opprobrium." (citation and quotations omitted)); In re Preszler,
232 P.3d 1118, 1133 (Wash. 2010) (explaining "[d]elay is a mitigating circumstance
when the respondent attorney is able to establish that the proceeding's time span
resulted in unfair prejudice to him or her, or is caused by unjustified prosecutorial
delay").
We find unjustified delay on the part of ODC may properly be considered as a
mitigating factor where a Respondent demonstrates unfair prejudice as a result
thereof. However, we find Respondent did not suffer any prejudice under the facts
of this case. To the contrary, during the pendency of these proceedings, Respondent
benefitted by continuing to practice law and practicing without the concomitant
responsibility of overseeing his trust account, as this Court had reassigned that task
to his associate. Further, it does not appear Respondent suffered any public
opprobrium or detriment to his practice, as Respondent repeatedly noted that more
than $21.5 million passed through his trust account since 2013.
To be clear, we do not condone, in any respect, the inordinate delay caused by ODC
in this case. However, we cannot ignore Respondent's longstanding pattern of using
money that was not his from his trust account, and we conclude this misconduct
warrants disbarment. See In re Beck, 412 S.C. 585, 587, 773 S.E.2d 576, 577 (2015)
(disbarring an attorney who, for approximately eleven years, used funds from his
trust account for purposes for which those funds were not intended "including
funding other clients' litigation, cash advances to clients, office operating expenses,
payroll, and personal expenses").
Accordingly, we reject the Panel's
recommendation and disbar Respondent from the practice of law in this state.
13
A-19

Within fifteen (15) days of the date of this opinion, Respondent shall file an affidavit
with the Clerk of Court showing he has complied with Rule 30, RLDE, Rule 413,
SCACR, and shall also surrender his Certificate of Admission to the Practice of Law
to the Clerk of Court. Within thirty (30) days of the date of this opinion, Respondent
shall pay or enter into a payment plan with the Commission on Lawyer Conduct to
pay the costs of these disciplinary proceedings, which total $13,141.66.
DISBARRED.
KITTREDGE and JAMES, JJ., concur. FEW, J., concurring in a
separate opinion. HEARN, J., dissenting in a separate opinion.

14
A-20

JUSTICE FEW: I concur in the majority's decision to disbar Mr. Wern. However,
there are two important aspects of this case as to which my perspective differs from
that of the majority. First, in my opinion, this case has absolutely nothing to do with
Rule 417, SCACR. Mr. Wern intentionally took his clients' money out of his trust
account, and he knew doing so was stealing. He directed the withdrawals from the
account with full knowledge of the crimes he was committing, and at other times he
delayed legitimate withdrawals to cover up his crimes. The fact he accomplished
the crimes by directing an employee to do the necessary acts does not implicate Rule
417. The record-keeping requirements of Rule 417 were designed to protect a lawabiding attorney and her clients from having trust funds stolen by a third party, or if
funds are lost or stolen, to ensure early detection. When the attorney is the person
doing the stealing, no record-keeping rule is going to stop him. Mr. Wern's attempt
to hide his thefts behind Rule 417 is disingenuous.
Second, I have a different perspective on ODC's delay in bringing formal charges
against Mr. Wern. Initially, I agree with the majority's characterization of the delay
as "inexcusable." However, ODC is an agency of this Court. ODC is set up under
Rule 413 of the South Carolina Appellate Court Rules, which we wrote. If ODC
engaged in inexcusable delay—and the entire Court agrees it has—then the
responsibility for the failure falls ultimately to this Court. See Rule 5(a), RLDE,
Rule 413, SCACR ("The Supreme Court shall appoint a member of the South
Carolina Bar who has been admitted under Rule 402, SCACR, as the disciplinary
counsel."). It is simply not enough for this Court to say "we do not condone . . . the
inordinate delay caused by ODC in this case." To say merely this is to blame the
current disciplinary counsel for our failure, 3 and effectively to "condone" our own
lack of supervision over the professionals we employ. The delay is ours, and we
must take the necessary steps—through rulemaking, staffing, and other means—to
improve the operations of ODC to prevent this delay from ever happening again.

The current disciplinary counsel is relatively new to the job, and if anything, is the
person responsible for getting this case and others in the backlog of the office
moving toward resolution.
3

15
A-21

JUSTICE HEARN: I respectfully dissent as to the decision to disbar Respondent
because I believe that sanction is excessive, particularly in light of Respondent's
lengthy, unblemished disciplinary history as well as the prejudice he sustained due
to the delay by the Office of Disciplinary Counsel (ODC) in resolving this matter.
Accordingly, I would impose a one-year suspension.
Respondent cannot be excused for his extreme carelessness and inattention
to his responsibilities with respect to his trust account, and I do not excuse him.
However, as soon as he became aware of the gravity of his ethical infractions,
Respondent took immediate steps to rectify the situation and replenish the funds in
his trust account. Shortly thereafter, he also hired an associate who was responsible
for ensuring his trust account was in full compliance with the disciplinary rules from
that point forward, a period of nearly six years. While I certainly appreciate that his
clients were harmed in the sense that their monies were being used for Respondent's
personal and office expenses, there is no evidence in this record that any client was
actually harmed or ever complained about Respondent's conduct. Moreover, the
inexplicable delay by ODC in resolving the complaint against Respondent most
assuredly prejudiced him. Therefore, in my view, the extreme sanction of
disbarment is not warranted, and I believe our prior jurisprudence bears this out. See
In re Murph, 350 S.C. 1, 5, 564 S.E.2d 673, 675 (2002) (describing disbarment as a
"severe sanction"). For example, we issued a two-year suspension for an attorney
who mismanaged his trust account, delegated responsibilities to his
spouse/bookkeeper whom he failed to adequately train, had negative client ledger
balances, attempted to restore the trust account with personal funds and earned fees,
and hired an accountant to reconcile his records. In re Swanner, 408 S.C. 191, 19294, 758 S.E.2d 711, 712-13 (2014). Swanner also improperly issued loans to clients
and failed to diligently pursue the appeal of a decision denying his client's claim,
and he had received two prior admonitions and a letter of caution. Id. at 195-97 n.1,
758 S.E.2d at 713-14 n.1. Despite these facts, which are similar to those presented
here but also included cognizable harm to clients and an extensive prior disciplinary
history, this Court did not disbar.
Conversely, we have found disbarment warranted when clients sustained
concrete harm as a result of more egregious conduct, accompanied by serious prior
disciplinary infractions. In In re Johnson, this Court disbarred an attorney who not
only misappropriated client funds and failed to maintain his trust and escrow
accounts, but also neglected client matters, pled guilty to assault and battery and
willful tax avoidance, failed to pay an expert witness and a court reporter, and
16
A-22

previously received a private reprimand, a public reprimand, and an interim
suspension. 385 S.C. 501, 504-05, 685 S.E.2d 610, 611 (2009). Mr. Wern's conduct
here in no way approaches the delicts committed by Johnson, nor does he have any
prior disciplinary history, yet the majority votes to disbar. More recently, in In re
Beck, we disbarred an attorney who violated approximately five ethical rules
including the misappropriation of client funds for over eleven years and had a prior
disciplinary history wherein he had received a letter of caution but yet admittedly
continued to violate the same rule. 412 S.C. 585, 588-89, 773 S.E.2d 576, 578
(2015). See also In re Warren, 416 S.C. 613, 614-15, 787 S.E.2d 528, 529 (2016)
(disbarring an attorney who, among other things, stole money from a trust for which
he served as trustee and accepted over $40,000 in fees but did not complete work as
promised or reimburse fees for the incomplete work); In re Pennington, 393 S.C.
300, 301-02, 713 S.E.2d 261, 261-62 (2011) (concluding disbarment was warranted
where an attorney, in addition to other violations, accepted fees for representing
clients but did no work on the clients' matters, contributed to a client going to jail
after the attorney failed to make payments for the client who had entrusted the
attorney to pay the checks at issue in the client's pending fraudulent check charges,
and did not pay a client's medical providers and insurers out of the client's settlement
funds). I find it significant that in all these cited cases, clients sustained concrete
injury because of the attorney's misconduct. Here, however, the complaint was
lodged by an associate who left Mr. Wern's employ and no client ever complained.
Most importantly, I believe it should matter that Respondent practiced law for thirtythree years without any complaint against him. In my view, Respondent's grievancefree disciplinary history for over three decades is a factor which should strongly
mitigate against disbarment.
Finally, I am admittedly troubled by ODC's lengthy delay in prosecuting this
matter. Respondent was in his mid-sixties when the allegations of misconduct
initially arose. Even accepting the Panel's assumption that Respondent would have
been disbarred at that time, the prejudice to him resulting from ODC's delay is
readily apparent—the passage of time has now rendered the possibility of
Respondent obtaining other employment extremely unlikely.
Accordingly, I would suspend Respondent for one year.

17
A-23

STATE OF SOUTH CAROLINA
BEFORE THE COMMISSION ON LAWYER CONDUCT
IN THE MATIER OF:
Richard G. Wern, Esquire, Respondent.
Docket Number:

19-CLC-004

PANEL REPORT

I.

INTRODUCTION & PROCEDURAL HISTORY

Respondent was admitted to the South Carolina Bar on May 14, 1979.
(Formal Charges, Paragraph 4A - Respondent's History) The Office of Disciplinary
Counsel (ODC) initiated a disciplinary investigation against Respondent in 2012 with
ODC File Number 12-DE-L-0552. (Formal Charges, Paragraph 3) On October 29,
2013, ODC filed a petition for interim suspension with the Supreme Court. The
Supreme Court placed Respondent on interim suspension from the practice of law
on November 6, 2013. (Formal Charges, Paragraph 4A - Respondent's History) An
investigative panel of the Commission on Lawyer Conduct authorized the filing of
Formal Charges against Respondent on November 15, 2013. (Formal Charges,
Paragraph 3)
Respondent filed a petition for reconsideration of the order of interim
suspension and, on December 23, 2013, the Supreme Court issued an order lifting
Respondent's interim suspension with the following conditions: Respondent was to
have no access to or control over the law firm's trust or operating accounts;
Respondent's associate attorney, Catherine Juhas, Esquire, was to be responsible
for the law firm's compliance with Rule 417, SCACR, and was required to file
A-24
1

monthly reconciliation reports of the trust account with ODC; and, Ms. Juhas was to
supply any requested financial records to ODC upon request during the ODC
investigation. (Respondent's Exhibit E) Respondent's license to practice law has
remained active since the interim suspension was lifted on December 23, 2013, and
both Respondent and Ms. Juhas have remained in full compliance with the
conditions of the Supreme Court's order dated December 23, 2013. (Formal
Charges, Paragraph 4B - Respondent's History)
ODC filed Formal Charges against Respondent in this matter on May 6, 2019.
Respondent filed his initial Answer to the Formal Charges on June 6, 2019, and an
Amended Answer on June 26, 2019. 1 Respondent has admitted the factual
allegations and rule violations alleged in the Formal Charges. (Amended Answer,
Paragraphs 17 and 18)
A Hearing Panel of the Commission on Lawyer Conduct convened on August
28, 2019, for purposes of considering evidence in mitigation and aggravation of
sanction and determining the recommended sanction to the Supreme Court.
Appearing at the hearing on behalf of ODC were Assistant Disciplinary Counsel Julie
K. Martino, Esquire, and Disciplinary Counsel John S. Nichols, Esquire. Respondent
appeared and was represented by Desa Ballard, Esquire. ODC presented testimony
from Lorey Callihan, Esquire, and John Clark. Respondent presented testimony of
Catherine Juhas, Esquire, Mara Ballard, and Respondent.
The transcript of the panel hearing was filed with the Commission on October
9, 2019. The parties submitted proposed orders to the Hearing Panel on November

1

Respondent's Amended Answer was redacted as directed in the Hearing Panel's pre-trial order of
July 15, 2019 .

A-25
2

12, 2019. ODC has recommended to the Hearing Panel that Respondent be
disbarred from the practice of law. Respondent contends that the six week interim
suspension from the practice of law in 2013 was a sufficient sanction, and that the
Hearing Panel should recommend that no additional sanction be issued against
Respondent or in the alternative that a Public Reprimand be imposed. The Hearing
Panel submits this Panel Report with Recommendations to the Supreme Court of
South Carolina for final disposition regarding this matter.
II.

FINDINGS OF FACT AND FINDINGS OF MISCONDUCT:

Based upon Respondent's admissions in his Amended Answer to the Formal
Charges, the Hearing Panel adopts the following Findings of Fact and Findings of
Misconduct as stated in the Formal Charges :2
A.

Prior to 2012, Respondent was not performing monthly reconciliations
on

his

trust

account.

His

staff

typically

performed

tvvo-way

reconciliations of Respondent's trust account at the end of each year.
Respondent did not adequately supervise his staff to ensure
compliance with Rule 417 , SCACR.
B.

Respondent's staff reconciled his trust account bank statement to his
trust account checkbook register and not to his trust account trial
balance.

Therefore, Respondent did not have adequate records to

show that he had money in trust that he was supposed to have for
each of his clients in violation of Rule 1.15 of the RPC, Rule 407,
SCACR, and Rule 417, SCACR.

Respondent's trust account was

2 Due to Respondent's admissions, this section of the Hearing Panel's Report is substantially identical
to what is stated in the Formal Charges with only a few minor changes.

A-26
3

often short of the amount it should have contained, although no NSF
notification was issued on his account and no client sustained any loss
of funds.
C.

Respondent was unable to provide monthly trial balances of client
monies held in trust, adequate receipts of deposits into his trust
account, client trust account ledgers for all of his clients, or bank
reconciliations for his trust account.

Respondent did not actively

participate in the reconciliations of his trust account until late in 2012,
when this complaint was filed.

Respondent's failure to maintain

required trust account records or to perform monthly reconciliations
violated Rules 1 and 2 of Rule 417, SCACR, and Rule 1.15(a), RPC.
Respondent's failure to hold client money separate from his own
property and his failure to keep complete records of client money
violated Rule 1.15(a), RPC.
D.

Respondent and his staff ensured no losses ·to clients by leaving
certain fees owed to Respondent in the trust account.

Respondent

delegated the responsibility for determining when to draw those funds
to his wife, who was the office manager and bookkeeper.
E.

Respondent's wife/bookkeeper based decisions to disburse from the
trust account to the operating account or the payroll account on the
financial needs of the law firm and on how much "fee" money was
available. Emails between Respondent and staff members show that
Respondent would be told that a certain amount of "fee" money was
A-27
4

available for funding firm operations and Respondent would authorize
the transfer of money from the trust account to the operating or payroll
account. Respondent admits that this practice of leaving fees in the
trust account was in violation of Rule 1.15(a), RPG, which requires a
lawyer to hold client property separate from his own property.
Respondent also admits that he failed to adequately supervise his
wife/bookkeeper in violation of Rule 5.3, RPC.
F.

On

multiple occasions in

2011,

Respondent's

wife/bookkeeper

instructed another employee, M.E., to transfer large even-number
amounts of money between accounts. On many of these occasions,
M.E. would email Respondent's wife/bookkeeper to tell her that ,certain
law firm bills needed to be paid, such as loans, electric bills,
mortgages, payroll, and advertising.

Respondent's wife/bookkeeper

would reply by email and tell M.E. to transfer a specified amount from
the trust account to the general operating account.

None of these

emails indicated which client ledgers were impacted by the transfer of
funds.

Disciplinary Counsel's investigation revealed that several of

these "bulk" transfers from the trust account led directly to negative
individual client ledgers.
G.

Respondent failed to supervise his non-lawyer employee in violation of
Rule 5.3, RPC, when he allowed his wife/bookkeeper to handle the
trust account without sufficient supervision. Respondent did not make
sufficient efforts to ensure that his firm had measures in place to
A-28

5

ensure that his wife/bookkeeper's handling of the trust account
complied with Rule 417, SCACR. Respondent did not personally make
reasonable efforts to ensure that his wife/bookkeeper's conduct was
compatible with Respondent's professional obligations regarding
handling client funds. Respondent knew, or should have known, of the
conduct as he was copied on many of the emails that discussed
moving money around to cover law firm expenses, payroll, and
distributions.
H.

Because Respondent was consistently disbursing from his trust
account without attributing disbursements to specific clients and
because he was also depositing funds into his trust account without
proper attribution, Respondent failed to hold client money separate
from his own property and failed to keep complete records of client
money in violation of Rule 1.15, RPC. Respondent's failure to keep
adequate financial records for his firm trust account violated Rule 417,
SCACR. Respondent's failure to keep adequate records for his firm
trust account caused some difficulty in accurately determining where
all the money belonged . When this complaint was filed, Respondent
retained an outside forensic accountant3 to rectify the issues with his
past omissions of the trust account records.

I.

On January 19, 2012, a successor law firm requested Respondent
transfer client funds held in trust for his former client, J.F., 4 to the

3
4

The forensic accountant was Mara Ballard, an employee of Respondent's counsel.
Client J.F. is also referred to as Jeffrey F. in the
hearing transcript.
A-29

6

successor firm.

Respondent did not immediately transfer the

requested funds because his trust account did not have J.F.'s money
in it. Respondent's client ledger balance reflected that the amount that
should have been held in trust for J.F. on January 20, 2012, was
$347 ,335.48.
J.

According to the sum of his client ledgers (trial balance), Respondent
should have had a total of $679 ,153.06, in his trust account on January
20, 2012. This represents the total for all clients that he should have
had in trust at that time, including J.F.

However, the balance of

Respondent's trust account at that time was $253,227.03.
Respondent's trust account was short by $425,926.03.

Thus,

He did not

have enough money in his trust account to cover J.F.'s ledger, much
less the rest of his clients' ledgers. Respondent's failure to hold client
money separate from his own property and his failure to keep complete
records of client money violated Rule 1.15(a), RPC.
K.

On January 25, 2012, after transferring funds into the trust account
from other sources, which will be further detailed below, Respondent
wrote trust account check number 8838 in the amount of $347,335.48
to the successor firm representing J.F.

L.

After Respondent deposited sufficient money into the firm's trust
account to cover J.F.'s ledger, the trust account still did not have
enough money to cover Respondent's other clients' ledgers.

On

January 25, 2012, Respondent's trust account trial balance (the sum of

A-30
7

all client ledgers) after the transfer to J.F., should have been
$358,067.58, but the journal balance (checkbook register balance) was
only $37,641.55, representing a shortage of $320,426.03.
M.

On January 13, 2012, several days before the new firm requested
J.F.'s funds, Respondent's general operating account was charged
$70.00 in fees for two items ($35.00 each) that were presented against
insufficient funds. The general operating account was in the negative
by approximately $1,000.00 at that time, the same time that the trust
account was short $425,926.03.

Respondent did not have enough

money in his law firm bank accounts to cover the trust account trial
balance, thus he failed to hold client money separate from his own
property and failed to keep complete records of client money in
vtolation of Rule 1.15(a), RPC, and Rule 417, SCACR.
N.

As noted above, Respondent began selling personal items and
depositing the proceeds into the firm general operating account to
cover the deficits.

On January 17, 2012, Respondent made three

separate deposits of $12,500.00,

$14,000.00,

and

$40,000.00,

obtained from the sale of Respondent's personal property, into the
firm's general operating account.

0.

On January 23, 2012, $30,000.00 was transferred to Respondent's
trust account from his general account and $65,000.00 was deposited
into Respondent's trust account from another source. On January 24,

A-31
8

2012, $10,500.00 was transferred to Respondent's trust account from
his general account.
P.

After Respondent made these deposits and transfers, he transferred
J.F.'s money to the new firm as noted in Paragraph K.

0.

On February 3, 2012, Respondent received loan proceeds in the
amount of $50,000.00, which were wired into his general account. On
February 6, the loan proceeds were transferred to his trust account.
Also on February 6, a remote deposit of $148,465.00 was made to
Respondent's general account and the next day, February 7,
$100,000.00 was transferred from the general account to his trust
account. These deposits of personal funds were made to ensure the
trust account held the correct amount for all clients.

R.

Respondent started doing three-way reconciliations beginning around
October 2012. However, for the months of November 2012 through
August 2013, f3espondent's trust account was short $110,907.1 O every
month in violation of Rule 1.15(a), RPC.

S.

Respondent also caused negative client ledgers by disbursing funds
from the trust account before depositing that particular client's money
into the trust account in violation of Rule 1.15(f), RPC. Between the
beginning of January 2007 and the end of December 2013,
Respondent disbursed before deposit on 735 client ledgers.

These

disbursements were banking transfers from the trust account to either
Respondent's general or payroll account. All of these disbursements
A-32

9

had the description,

"attorney's fee"

Respondent's general ledger.

or "costs

recovered"

on

The disbursements before deposit

resulted in deficit balances in all 735 client ledgers. Some of the deficit
balances were in the tens of thousands of dollars, and many of the
disbursements were months before the deposits. Each disbursement
before deposit is a violation of Rule 1.15(f), RPC. 5
T.

Respondent violated Rule 2(c) of Rule 417, SCACR, by writing checks
on the trust account to cash.

U.

The foregoing admitted facts constitute misconduct as defined in Rule
7(a), RLDE, as follows: Rule 7(a)(1), RLDE, in that Respondent
violated or attempted to violate the Rules of Professional Conduct
and/or other rules of this jurisdiction regarding the professional conduct
of lawyers; Rule 7(a)(5), RLDE, in that Respondent engaged in
conduct tending to pollute the administration of justice, tending to bring
the courts or the legal profession into disrepute, or demonstrating an
unfitness to practice law; and, Rule 7(a)(6), RLDE, in that Respondent
violated the Oath of Office taken upon admission to practice law in
South Carolina.

Ill.

AGGRAVATING AND MITIGATING FACTORS

As the factual allegations and rule violations have been admitted to by
Respondent, the only issue remaining is what sanction to recommend to the

s The Hearing Panel further finds that each violation of Rule 1.15(f), RPG, related to the 735 negative
client ledgers was also a violation of Rule 1.15(g), RPC, in that each disbursement before deposit
was an instance of Respondent using entrusted money for the benefit of someone other than the
legal owner of those funds .
A-33

10

Supreme Court.

Matter of Kitchel, 347 S.C. 291, 554 S.E.2d 868 (2001 ). In

det.ermining what sanction is appropriate, the American Bar Association has
recommended certain factors be considered in aggravation and others be
considered in mitigation. ASA Standards for Imposing Lawyer Sanctions (as
amended 1992) . These Standards have not been formally adopted in South Carolina
but our Supreme Court has used them as persuasive authority in disciplinary
matters. See, Matter of Jordan, 421 S.C. 594, 809 S.E.2d 409 (2017) (Supreme
Court acknowledged ASA standards on mitigation in disciplinary matters); Matter of
Chastain, 340 S.C. 356, 532 S.E.2d 264 (2000) (same). In determining the
appropriate sanction recommendation, the Hearing Panel has considered both
aggravating and mitigating factors. See, ABA Standards for Imposing Lawyer
Sanctions §9 .0 (Aggravation and Mitigation) .
A. AGGRAVATING FACTORS 6
1. Pattern of Misconduct and Multiple Offenses.

The Hearing Panel has considered in aggravation that Respondent engaged
in a pattern of misconduct over a significant period of time that resulted in multiple
rule violations. See, Matter of Jacobsen, 386 S.C. 598, 690 S.E.2d 560 (201 O) ;
Matter of Toney, 396 S.C. 303, 721 S.E.2d 437 (2012). See also, ASA Standards for
Imposing Lawyer Sanctions §9 .22(c) (pattern of misconduct) and §9.22(d) (multiple
offenses) .
The lengthy pattern of misconduct that Respondent has admitted to violated
6

ODC has requested that the Hearing Panel consider the following additional factors in aggravation
of sanction : (1) dishonest or selfish motive, (2) refusal to acknowledge the wrongful nature of the
conduct, and (3) failure to cooperate and false statements to ODC during the disciplinary process .
However, the Hearing Panel finds that ODC did not establish the presence of these additional
aggravating factors by clear and convincing evidence
A-34 .

11

multiple ethical rules as stated in Section II. above. This misconduct was extremely
serious in that, for an extended period of time, it put client funds entrusted to
Respondent at a significant risk of loss. Respondent opened his law practice in
1981. (Tr. p.124, lines 7 - 10) Respondent admits that, prior to 2012, he did not
properly manage his trust account in accordance with Rule 1.15, RPG, or Rule 417,
SCACR.7 In fact, Respondent admitted that he had never even read Rule 417,
SCACR, prior to 2012 and that he performed his first three way reconciliation of the
trust account in October 2013. (Tr. p.151, lines 13 - 17; p.167, lines 10 -12; p.193,
lines 20 - 24) Respondent concedes that for many years he did not maintain
individual client ledgers, did not perform monthly three-way reconciliations, that he
improperly disbursed funds before deposit, that he commingled personal funds with
client funds, and that he did not supervise his law firm staff in their handling of trust
account funds. (Tr. p.47, lines 8 - 1O; p.92, lines 23 - 25; p.93, line 24 - p.94, line 8;
p.144, lin·es 17 - 24; p.148, line 17 - p.149, line 14; p.192, line 9 - p.193, line 4;
p.206, line 23 - p.207, line 2; p.211, line 16 - p. 213, line 17) As a result of
Respondent's misconduct, individual client ledgers often contained negative
balances and, at one point in 2012, the trust account was short by $425 ,926.03 .
Respondent was forced at that time to sell assets and deposit personal funds into

7

Respondent's misconduct began prior to the adoption of these rules. However, the duty to
safeguard and account for client funds predates the adoption of the Rules of Professional Conduct in
1990 as well as the adoption of Rule 417 in 1997. See, Matter of Hudson, 295 S.C. 23, 367 S.E.2d
(1988) (lawyer disciplined where he, among other things, "failed to maintain complete records of all
client funds in his possession and to render appropriate accounts to his clients regarding them in
violation of DR9-102(B)(3)"); Matter of Bozardt, 293 S.C. 95, 359 S.E.2d 58 (1987) (lawyer's "failure
to maintain records of clients' funds entrusted to him, to render appropriate accountings, and the
misappropriation of clients' funds to personal use" violated DR9-102); Matter of Iseman, 287 S.C .
194, 336 S.E.2d 474 (1985) ("the writing and negotiation of trust account checks prior to securing and
depositing funds from the client is a violation of DR9-102."); Matter of Wrighten, 257 S.C. 184, 184
S.E.2d 717 (1971) (lawyer disbarred for, among other things, failing to account for funds due to his
clients).
A-35

12

his trust account in order to completely restore the client funds before a client
sustained any loss. (Tr. p.39, lines 20 - 23; p.49, line 22 - p.50, line 4; p.51, line 9 p.59, line 25; p.60, line 15 - p.63, line 17; p.145, line 7 - p.146, line 23; p.147, line
16 - p. 148, line 9; p.149, lines 6 - 14; p.166, lines 6 - 14; p.171, lines 12 - 21) While
it is correct that no NSF notification was ever issued on the trust account and no
client ultimately sustained any loss of funds, that does not negate the significant risk
of client harm caused by Respondent's irresponsible management of and lack of
oversight over his trust account. 8 (Tr. p.138, line 18 - p.139, line 4; p.144, lines 4 - 6;
p.149, lines 15 - 21; p.157, lines 1O - 11) Respondent was extremely fortunate that
he had sufficient personal resources available in 2012 that allowed him to fully
restore funds to the trust account before any client harm occurred.
2. Substantial experience in the practice of law.

The Hearing Panel has also considered in aggravation Respondent's
substantial experience in the practice of law. See, ABA Standards for Imposing
Lawyer Sanctions, §9.22(i)

(substantial experience in the practice of law) .

Respondent is 72 years old. He was admitted to the South Carolina Bar on May 14,
1979, and he opened his own law practice in 1981 where he has practiced law since
that time. (Tr. p.122, line 7 - p.124, line 10). Respondent has an extremely
successful law practice, and he has considerable experience in domestic, personal
injury, and workers compensation law. (Tr . p.129, line 8 - p.135, line 13; p.139, line

8

During his testimony at the panel hearing, Respondent acknowledged that his misconduct put his
clients at great risk. Respondent stated that he does not think he is any longer a threat of harm to the
public but that "in the earlier days when we weren't doing the proper accounting it was a risk. I've
learned about that.• {Tr. p.160, lines 15 - 22) Respondent admitted that he was previously a risk to
the public "in the early days like that. Even though nobody lost any money, there was no nonsutficient
funds, I didn't have that, but I was." (Tr. p.161, A-36
lines 1 - 4)

13

16 - p.141, line 14) Respondent undoubtedly should have known about and
understood his ethical obligations to properly oversee the operation of his trust
account and to protect and preserve the client funds that were entrusted to him as
required by the Rules of Professional Conduct and Rule 417, SCACR.
B. MITIGATING FACTORS 9
1. Absence of Prior Disciplinary Record.

The Hearing Panel has considered in mitigation that Respondent has
practiced law for approximately 40 years and, other than this pending matter, he has
no disciplinary history. (Tr. p.139, lines 7 - 15). See, ABA Standards for Imposing
Lawyer Sanctions §9.32(a) (absence of a prior disciplinary record).
2. Remorse.

Respondent's testimony and his demeanor at the panel hearing convinced the
Hearing Panel that he was remorseful for his misconduct. See, Matter of Cromartie,
401 S.C. 265, 736 S.E.2d 856 (2012); Matter of Glover, 333 S.C. 423, 510 S.E.2d
419 (1998).

See also, ABA Standards for Imposing Lawyer Sanctions §9.32(1)

(remorse). During his testimony, Respondent acknowledged his violation of the
ethical rules and expressed his regret over the necessity of these disciplinary
proceedings. Respondent testified that "I'm sorry that I didn't keep up with it. I should
have kept up. And I shouldn't have delegated as much as I did to (staff]. I should
have personally been doing these things myself. I became complacent, you know,

Respondent has urged the Hearing Panel to consider the following additional factor in mitigation of
sanction: absence of a dishonest or selfish motive. Even though the Hearing Panel finds that ODC did
not establish by clear and convincing evidence that Respondent had a dishonest or selfish motive,
the Hearing Panel also finds that Respondent did not establish the lack thereof by clear and
convincing evidence . Thus, this Panel Report does not contain any analysis of the dishonest or
selfish motive factor.
A-37

9

14

and didn't stay up with what I should be doing with the trust account. And I'm sorry
for that. And I'm sorry for all of this, all the problems we've got. " (Tr. p.149, line 21 p.150, line 3) . Respondent further testified that "Yes, I didn't supervise, I improperly
delegated. I put money in there of my own to balance the account out. I've admitted.
And I'm sorry, you know, I did those th ings in the past, but I've learned my lesson."

(Tr. p.160 , lines 11 - 14) Respondent also expressed that these proceedings have
been a valuable lesson to him and that he has learned that "the rules are an
extremely good thing for the clients. And that by following those rules you're
minimizing the risk to my clients of a loss. So the rules are really good, the system is
working . This process, even though it's been since 2012 and here we are in 2019,
has educated me. It's made me a better lawyer in many respects. And I appreciate
that. And I apologize for all the trouble that I've caused ." (Tr. p.208, line 22 - p.209,
line 4)
3. Full and Free Disclosure to Disciplinary Board or Cooperative
Attitude Toward Proceedings.

The Hearing Panel finds that Respondent had a cooperative attitude towards
these disciplinary proceedings. See, ABA Standards for Imposing Lawyer Sanctions
§9 .32(e) (full and free disclosure to disciplinary board or cooperative attitude toward
proceedings). Respondent testified that he has attempted to cooperate throughout
these proceedings, and the Hearing Panel finds his testimony in this regard to be
credible. (Tr. p. 157, line 21 - p.158, line 5; p. 167, lines 16 - 19; p.174, lines 24 - 25)
In August 2013, Respondent filed a response with ODC in which he admitted that no
three-way reconciliations had ever been done and that the reconciliations did not
become

a part of

Respondent's law practice until 2012 . (Tr. p.109, line 23 - p.110,
A-38
15

line 9; Respondent's Exhibit B) . Respondent appeared before ODC on October 7,
2013, and responded to ODC's questions under oath, and he also filed follow-up
documentation with ODC after the interview to clarify some issues that were raised
during the interview. (Tr. p.179, lines 14 - 16; p.191, lines 7 - 15; Amended Answer,
Paragraph 13) Respondent also admitted all factual allegations and rule violations
alleged in the Formal Charges by ODC. Additionally, Respondent has remained in
full compliance with the conditions of the Supreme Court Order issued on December
23, 2013. No evidence has been presented to show that Respondent acted in bad
faith to obstruct or delay these disciplinary proceedings. 10
4. Character or Reputation.

Respondent presented character testimony by affidavit from Tillman U.
Millhouse Jr. and Walter Ameika, Esquire, which has been taken into consideration
by the Hearing Panel. See, Matter of Cromartie , 401 S.C. 265, 736 S.E.2d 856
(2012). See also, ABA Standards for Imposing Lawyer Sanctions §9.32(g) (character
or reputation). Mr. Millhouse has had a personal and professional relationship with
Respondent since the 1970's. He described his friendship with Respondent as
"deep" and he opined he was sufficiently capable of offering an opinion as to
Respondent's truthfulness. Mr. Millhouse advised the Hearing Panel about

a legal

matter Respondent had handled for him that he thought was closed, but Respondent
10 ODC argues that Respondent was not cooperative based on the following allegations: (1) in initial
responses, he requested dismissal of the complaint; (Tr. p.169, line 10 - p.171, line 7; p.173, lines 4 20) (2) he failed to comply with a subpoena request to provide monthly reconciliations; (Tr. p.176,
lines 9 - 15) (3) he was deceptive during an interview about the $110,000.00 shortage discussed in
Paragraph 11.R above; (Tr. p.187, line 10 - p.191 , line 14; p.202 , lines 12 - 19; p.204, lines 10 - 13)
and, (4) he made a false statement in Paragraph 6 of the Amended Answer to the Formal Charges
that the former associate "lost her claim for alleged unpaid wages .." After a thorough review of the
testimony and exhibits, the Hearing Panel is not persuaded that ODC established Respondent's bad
faith failure to cooperate by clear and convincing evidence. Additionally, Respondent was never
charged by ODC with a violation of Rule 8.1, RPC.
A-39

16

recovered additional funds and paid them to Mr. Millhouse when he was "unaware"
the

funds

would

be paid.

He described

Respondent's word

as "gold."

(Respondent's Exhibit G) Walter Ameika, Esquire, has collaborated with Respondent
professionally since 1982, referring cases to one another and working together. Mr.
Ameika testified Respondent is "a truthful, honest and hard- working attorney." He
specifically has observed Respondent's concern for his clients and referenced
several occasions in which Respondent reduced his attorney's fee and/or waived
recovery of case expenses for his client's benefit.

Mr. Ameika's opinion was that

Respondent could have "never intended to use any client money for his own use and
if there were mistakes in accounting, they were innocent in nature ... [Respondent]
.. . never would have done anything intentionally wrong to hurt his clients."
(Respondent's Exhibit F)
5. Timely good faith effort to rectify consequences of misconduct.
The Hearing Panel has also concluded that, when Respondent became
aware of his misconduct, he made a timely good faith effort to rectify the
consequences of that misconduct. See, ABA Standards for Imposing Lawver
Sanctions §9.32(d) (timely good faith effort to make restitution or to rectify
consequences of misconduct). In 2012, when Respondent became aware of the
shortage in his trust account, he immediately began selling assets and used his
personal funds to eliminate the trust account shortage. He also hired

a forensic

accountant who for the next year assisted in reconciling the trust account,
responding to ODC, and training Respondent and his staff about three-way
reconciliations and proper trust accounting procedures. (Tr. p.147, line 16 - p.148,
A-40
17

line 24; p:158, lines 6 - 1O; p.166, lines 15 - 25; p.225, lines 24 - 25; p.226, line 12 p.227, line 15)
Respondent has also taken steps to ensure that this misconduct does not
occur again in the future. Respondent attended the LEAPP Trust Account School in
October 2013 and June 2019, he created an office policy manual for trust accounting
procedures, he implemented various procedural safeguards in his law practice to
ensure compliance with all ethical rules regarding his trust account, and his trust
accounting software always remains up to date. (Tr. p.118, line 21 - p. 120, line 17;
p.152, line 9 - p.153, line 13; p.153, line 14 - p.154, line 25; p.155, lines 2 - 22)

6. Delay in Disciplinary Proceedings.
The Hearing Panel believes the delay in these disciplinary proceedings
warrants substantial consideration as a mitigating factor. See, Matter of Dickey, 395
S.C. 336, 718 S.E.2d 739 (2011 ); Matter of Samaha, 399 S.C. 2, 731 S.E.2d 277
(2012). See also, ABA Standards for Imposing Lawyer Sanctions §9.320) (delay in
disciplinary proceedings). The investigation of thi~ matter was initiated by ODC in
2012, and Formal Charges were authorized by the Commission on Lawyer Conduct
in November 2013. However, Formal Charges were not filed with the Commission
until May 2019. There has been a significant delay in the resolution of this matter,
and there is no evidence that this delay was caused by Respondent. Rather, ODC
concedes that "we admit that this case has been around for a long time ... Financial
cases are sometimes very complex and they take a lot of time. We should have
done it sooner, but we're here today and ready to move on." (Tr. p.236, lines 3 - 9)
In the meantime, Respondent has been practicing law since his interim suspension

A-41
18

was lifted by the Supreme Court in December of 2013 without any additional
disciplinary action being taken against him.
IV.

DISCUSSION AND RECOMMENDATION
A.

Case Law submitted by ODC for consideration by Hearing Panel in
making sanction recommendation.

1.

Matter of Swanner, 408 S.C. 191, 758 S.E.2d 711 (2014) (two year

suspension: Respondent mismanaged his trust account; delegated reconciliation of
the trust and operating accounts to his wife; failed to train his wife in trust accounting
procedures; failed to review any accounting reports; and, failed to ensure that she
performed any reconciliations).
2.

Matter of Beck, 412 S.C. 585, 773 S.E.2d 576 (2015) (disbarment:

Respondent used client funds for improper purposes; failed to properly reconcile his
trust account; did not maintain records required by Rule 417, SCACR; attempted to
restore misappropriated funds by leaving earned fees in the trust account; had
negative client ledgers; and, his trust account funds were restored by the ATP using
earned fees and cost reimbursements) .
B.

Case law submitted by Respondent for consideration by Hearing
Panel in making sanction recommendation. 11

1.

Matter of Pyatt, 425 S.C. 238, 821

S.E2d 318 (2018) (public

reprimand: NSF occurred when funds deposited into incorrect account; and,
11

Respondent also submitted the following additional cases for the Hearing Panel to consider: Matter
of Ponder, 375 S.C. 525, 654 S.E.2d 533 (2007) (public reprimand); Matter of Gay, 375 S.C. 418, 653
S.E.2d 272 (2007) (public reprimand); Matter of Keegan, 373 S.C . 176, 644 S.E.2d 722 (2007) (public
reprimand) ; Matter of Nevill, 361 S.C . 396 , 605 S.E.2d 534 (2004) (public reprimand); Matter of Hart,
361 S.C. 392, 605 S.E.2d 532 (2004) (public reprimand); Matter of Keenan, 357 S.C. 445, 593 S.E.2d
475 (2004) (public reprimand) ; Matter of Rogol, 355 S.C. 627, 586 S.E.2d 593 (2003) (public
reprimand) .
A-42

19

Respondent "unable to supply reconciliation reports during the Commission's
investigation" but he had retained a bookkeeper and had implemented software for
the trust account).
2.

Matter of Keretses, 417 S.C. 407, 790 S.E.2d 383 (2016) (public

reprimand: employee discovered stealing money from the trust account; failure to
maintain client ledgers or perform monthly reconciliations; and, Respondent restored
all funds to the trust account).
3.

Matter of Pennington, 411 S.C. 429 , 769 S.E.2d 424 (2015) (public

reprimand: alleged theft by lawyer of fee from client funds held in trust; failed to
maintain adequate financial records; failure to do complete reconciliations of the
trust account; and, failed to maintain individual client ledgers).
4.

Matter of Sarratt, 394 S.C. 209, 715 S.E.2d 337 (2011) (public

reprimand: placed on interim suspension for an unrelated matter, and, account did
not have sufficient funds to refund unearned fees to clients).
5.

Matter of Breen, 391 S.C. 616, 707 S.E.2d 416 (2011) (public

reprimand: Respondent failed to properly maintain his trust account by (a) failing to
record credits and debits on his check stubs; (b) failing to record the client or file
associated with the credits and debits; (c) making cash withdrawals from his trust
account; and (d) failing to reconcile his trust account).
6.

Matter of Stoddard, 391 S.C. 447, 706 S.E.2d 505 (2011) (public

reprimand: employee theft not discovered because Respondent not doing monthly
reconciliations; Respondent failed to "adequately account for law firm funds

A-43
20

maintained on deposit in his trust account to cover bank charges and fees ... did not
prepare settlement statements on all of his contingency cases ... had a practice of
disbursing checks to clients and to his firm prior to actually depositing and collecting
the funds to cover the disbursements;" and, wrote checks from trust payable to
"cash.") .
7.

Matter of Halford, 391

S.C. 392, 706 S.E.2d 4 (2011) (public

reprimand: multiple occasions of NSFs issued on Respondent's trust account; failure
to wait sufficient time for checks to clear before issuing checks from trust account;
failure to reconcile client ledger balances; multiple client ledgers with negative
balances; failure to conduct monthly reconciliations of his trust account).
C. Discussion and Recommendation.

The Hearing Panel notes the similarity of the facts in this case to the Beck
case cited above that resulted in Mr. Beck's disbarment. Had this case come before
the Hearing Panel shortly after Formal Charges were authorized in 2013, then it is
likely that this Hearing Panel would have considered

a recommendation of

disbarment due to the gravity of Respondent's misconduct and the risk of significant
client harm caused by the misconduct. However, the Hearing Panel has struggled
greatly with the length of time that this matter has been pending. Approximately
seven years have passed since the misconduct occurred and, in the meantime,
Respondent has continued to practice law without any additional disciplinary issues
and has taken significant steps towards correcting the deficiencies that resulted in
the misconduct.

A-44
21

When the purpose of these disciplinary proceedings is taken into account, the
Hearing Panel is not convinced that disbarment is the appropriate sanction
recommendation at this point in time. The Supreme Court has noted in prior cases
that the purpose of disciplinary proceedings is not to punish the lawyer. Rather, the
goal of disciplinary proceedings is to protect the integrity of the legal system and the
public, to deter unethical conduct among all lawyers, and to rehabilitate the lawyer
where appropriate . See, Matter of Chastain, 340 S.C. 356, 532 S.E.2d 264 (2000).
After a thorough review of the record in this matter, the Hearing Panel is convinced
that Respondent is contrite, that he has learned a valuable lesson from being
involved in these proceedings, that he has made significant efforts over the last
several years to ensure the misconduct does not occur again in the future, and that
he no longer poses a threat of harm to the public or the integrity of the legal system.
The Hearing Panel finds, that these lengthy proceedings and the six week interim
suspension already served have operated to rehabilitate Respondent and to educate
him both on his ethical obligations as to his trust account and the ramifications of
violating those ethical rules. In requesting that he receive no additional sanction or a
public reprimand, Respondent testified that "hopefully I've set a good example of
how to recognize what I was doing wrong and correct those wrongs. And I have six
years of $21.5 million going through my trust account and every penny documented.
So I'm hoping that you would recognize my efforts. I was suspended temporarily and
have been through the suspension process. And I'm sorry for what happened in this
matter." (Tr. p.161, lines 5 - 15) Respondent stated that through this process he has
learned "(h]ow important the rules are, the professional rules. And how important it is

A-45
22

that the rules wiU actually hetp you help your client." . .. and "if you follow the rules
you•re helping protect your client1s monies.u (Tr. p.161, lines 16 - 22) Additionally, he
testified tha1 he has learned that "if you do that you're minimizing the risk of your
client's moneyt of the pubfic. So it's extremely important, it's for the protection of the
clients." (Tr. p.162, lines 1 - 3) When asked what he would do if the Supreme Court
lifted the restrictions in its order of December 23, 2013, Respondent replied that he
would immediately seek advice from his counsel to ensure he stays in compliance
with the ethical rules. (fr. p.206, lines 1 - 6)
Based on the foregoing, the Hearing Panel recommends to the Supreme
Court:
1). That Respondent receive a six week suspension for the misconduct, but that
Respondent be given credit for the six week suspension already served. 12
2). That Respondent be ordered to pay the costs of these discipfinary

proceedings within thirty days.
3) That the conditions outlined in the Supreme Court Order dated December 23,
2013, be lifted.

Dated: January
At Anderson, SC

'"-~

, 2020
/

I

I

1,,/

2 The Hearing Panel recommends that the requirements of Rule 32, RLDE, be waived since
Respondent previously completed the recommended six week suspension.

1

23
A-46

A-47

A-48

A-49

A-50

A-51

A-52

A-53

A-54

A-55

A-56

A-57

A-58

A-59

A-60

A-61

A-62

A-63

